DEPARTMENT OF HOMELAND SECURITY

    Office of Inspector General

         Administration of the Federal 

   Trucking Industry Security Grant Program 

           for FY 2004 and FY 2005 





OIG-08-08                    October 2007
                                                                         Office of Inspector General

                                                                         U.S. Department of Homeland Security
                                                                         Washington, DC 20528




                                           October 29, 2007

                                                Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296), by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared as part of our
oversight responsibilities to promote economy, efficiency, and effectiveness within the department.

This report addresses the procedures and expenditures of the DHS trucking industry security grant
program, which funds Highway Watch®. It is based on interviews with employees and officials of
relevant agencies and institutions, direct observations, and a review of applicable documents.

It is our hope that this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report




                                              Richard L. Skinner 

                                              Inspector General 

Table of Contents/Abbreviations 



Executive Summary ...............................................................................................................................1 


Background ............................................................................................................................................2 


Results of Review ..................................................................................................................................4 


    Procedures for the FY 2004 Trucking Industry Security Grant........................................................4 


    Procedures for the FY 2005 Trucking Industry Security Grant .......................................................8 


    Grant Funding for FY 2004 and FY 2005 ......................................................................................10 


Appendices
   Appendix A:          Purpose, Scope, and Methodology............................................................................12 

   Appendix B:          Management’s Comments to the Draft Report..........................................................13 

   Appendix C:          Funding Profile for Highway Watch®......................................................................14 

   Appendix D:          Timeline of Grant Application and Awards..............................................................15 

   Appendix E:          Major Contributors to this Report .............................................................................17 

   Appendix F:          Report Distribution ....................................................................................................18 


Abbreviations
     ATA                           American Trucking Associations
     DHS                           Department of Homeland Security
     DOT                           Department of Transportation
     FEMA                          Federal Emergency Management Agency
     FY                            Fiscal Year
     G&T                           Office of Grants and Training
     ISAC                          Information Sharing and Analysis Center
     MSU EPEC                      Mississippi State University Emergency Planning and Education Center
     OIG                           Office of Inspector General
     OMB                           Office of Management and Budget
     SLGCP                         Office of State and Local Government Coordination and Preparedness
     TSA                           Transportation Security Administration
OIG 

Department of Homeland Security
Office of Inspector General

Executive Summary
                     The Department of Homeland Security administers the trucking industry
                     security grant program, which funds the Highway Watch® program, managed
                     currently by the American Trucking Associations. Highway Watch® trains
                     and supports the nation's transportation community in how to detect and report
                     security threats, how to avoid becoming a target for terrorist activity, and how
                     to recognize potential highway safety hazards. As required by the
                     Implementing Recommendations of the 9/11 Commission Act of 2007 (Public
                     Law 110-53), we initiated part one of a two-part review of this program. This
                     report describes the announcement, application, receipt, review, award,
                     monitoring, and closeout processes for the FY 2004 and FY 2005 trucking
                     industry security grants. Also, it summarizes the expenditures related to the
                     FY 2004 and FY 2005 grants. We are not making any recommendations in
                     this report. The second part of this review will assess the performance,
                     efficiency, and effectiveness of the trucking industry security grant program,
                     and the need for the program.

                     In 2004, the Transportation Security Administration provided the first amount
                     of substantial security funding for the Highway Watch® program through a
                     non-competitive award. Shortly after the American Trucking Associations
                     and the Transportation Security Administration signed a cooperative
                     agreement for the FY 2003 funds, the Department of Homeland Security
                     transferred program oversight to its Office of State and Local Government
                     Coordination and Preparedness. Grant officials in the Transportation Security
                     Administration continued to provide financial administration services for both
                     FY 2003 and FY 2004 funding. The cooperative agreement was then
                     amended to award the American Trucking Associations the FY 2004 funds.
                     For FY 2005, American Trucking Associations was granted a new cooperative
                     agreement by the Department of Homeland Security. They received
                     $26.6 million under trucking industry security grants for FY 2004 and FY
                     2005. The Department of Homeland Security retained $366,060 for program
                     administration. The majority of American Trucking Associations’
                     expenditures were for program administration ($9.3 million) and for training
                     ($8.8 million). The Transportation Security Administration and Office of
                     State and Local Government Coordination and Preparedness monitored the
                     expenditures, and closeout has not yet occurred for either year’s funds because
                     of issues regarding program administration costs.
    Administration of the Federal Trucking Industry Security Grant Program for FY 2004 and FY 2005

                                                Page 1
Background
                          Our nation’s highway infrastructure includes nearly 4 million miles of public
                          roads, close to 600,000 bridges, and more than 1,050 highway-related and
                          transit tunnels. In 1998, the American Trucking Association (ATA)
                          established the Highway Watch® program to take advantage of the experience
                          and commitment of transportation workers to help safeguard America’s
                          roadways and communities. With funding from the Department of
                          Transportation (DOT), the Highway Watch® program recruited and trained
                          transportation workers to recognize and report hazardous conditions, vehicle
                          crashes, criminal activity, and other incidents. DOT provided the funds to
                          ATA via a cooperative agreement, which, unlike a grant, envisions
                          “substantial” involvement between the government and the recipient.1

                          After the September 11, 2001, terrorist attacks, Congress encouraged the
                          addition of a security component to the Highway Watch® training program so
                          that truck drivers would be better able to identify security threats.2 In
                          March 2003, ATA submitted a proposal to the Transportation Security
                          Administration (TSA) seeking $100,000 to expand the Highway Watch®
                          program, both to serve more states and to support highway communications in
                          the event of a national emergency. In its technical evaluation of the proposal,
                          TSA did not envision that this project would require substantial TSA
                          involvement; therefore, TSA awarded the funds through a noncompetitive
                          grant on August 1, 2003. This funding was referred to as “bridge money” to
                          help ATA sustain the Highway Watch® program while the program was
                          being redesigned and expanded.

                          A week later, TSA announced via the Federal Register, the application period
                          for $19.7 million in fiscal year (FY) 2003 program funds. TSA planned to
                          make the award competitively, across four program priorities:

                              •   Recruitment of watch participants;

                              •   Training of watch participants, including curriculum development;

                              •   Call center operations; and

                              •   Management and consulting services.

                          Fourteen companies, including ATA, applied for the grant. However, before
                          TSA announced the awards decision, ATA asserted that TSA could not call its
                          program “Highway Watch” because ATA registered the term as a service

1
    31 U.S.C. §§ 6304 – 6305.
2
    S. Rep. No. 107-224, at 84 (2002).
         Administration of the Federal Trucking Industry Security Grant Program for FY 2004 and FY 2005

                                                     Page 2
                          mark in March 2002. ATA further contended that Congress specifically
                          earmarked the trucking industry security grant funds to the “existing joint
                          industry–government Highway Watch program.”3

                          On January 16, 2004, TSA sent a letter to each of the applicants stating that in
                          the best interests of the government, TSA was canceling the announcement to
                          solicit grant applications under the Highway Watch Program Request for
                          Applications. In March 2004, TSA and ATA entered into a cooperative
                          agreement using the FY 2003 funds to expand the Highway Watch® program
                          nationwide and to increase the capability for reporting security-related
                          incidents. The cooperative agreement increased the amount of government
                          oversight compared to the August 2003 noncompetitive grant. The period of
                          performance was initially set from March 15, 2004, to March 15, 2005. See
                          Appendices C and D for a summary of the trucking industry security grant
                          awards, funding profile, and timeline for application and awards.

                          The scope of work of the cooperative agreement for the FY 2003 funds
                          included all four program priorities.

                              • 	 The first priority focused on participant identification and recruitment,
                                  and established a goal of increasing the number of Highway Watch®
                                  participants by 300,000 to 400,000 during the project year. New
                                  participants would be recruited from the commercial and public
                                  sectors, including independent, unaffiliated passenger and cargo
                                  drivers, and law enforcement and first responders.

                              • 	 The second priority required ATA to create highway security training
                                  programs designed specifically for each service segment of the motor
                                  carrier industry: individual driver, first responder, and law
                                  enforcement communities. The cooperative agreement further
                                  required ATA to develop a plan for evaluating the effectiveness of the
                                  training programs.

                              • 	 The third priority focused on communications, specifically the
                                  Highway Watch® Call Center. ATA was required to create a
                                  continuously operating communications call center capable of
                                  directing safety and security-related observations to first responders
                                  and law enforcement for immediate action, or to TSA for investigation
                                  as possible terrorist activity.

                              • 	 The final priority required ATA to provide management and
                                  consulting services and oversight, in cooperation with TSA leadership,
                                  to create an Information Sharing and Analysis Center (ISAC)

3
    H.R. Rep. No. 108-76, at 82 (2003) (Conf. Rep.).
         Administration of the Federal Trucking Industry Security Grant Program for FY 2004 and FY 2005


                                                     Page 3

                             dedicated exclusively to highway and highway-transport-related
                             security needs and issues.

                     Within the Department of Homeland Security (DHS), TSA initially
                     administered the program. In 2003, DHS decided to consolidate grant
                     programs and functions from several components within the Office of State
                     and Local Government Coordination and Preparedness (SLGCP). Program
                     oversight of Highway Watch® transferred from TSA to SLGCP in May 2004.
                     SLGCP provided day-to-day management for the trucking industry security
                     grants, and TSA provided subject matter expertise. TSA was responsible for
                     ensuring the cooperative agreement was designed to accomplish risk-based
                     security objectives. Also, TSA retained fiduciary responsibility for the
                     cooperative agreement, approving and distributing the FY 2003 and FY 2004
                     program funds.

                     In October 2005, SLGCP became the Office of Grants and Training (G&T)
                     within the DHS Preparedness Directorate. G&T began overseeing the
                     program management, which included the day-to-day operations and ATA’s
                     completion of the program priorities set by the agreement. G&T’s operations
                     were transferred to the Federal Emergency Management Agency (FEMA) in
                     March 2007. The G&T staff who provide daily oversight of
                     Highway Watch® is now a part of the Capabilities Division in FEMA’s
                     National Preparedness Directorate.


Results of Review
     Procedures for the FY 2004 Trucking Industry Security Grant
                     TSA awarded the FY 2003 trucking industry security grant funds to ATA in
                     March 2004 under a cooperative agreement. For the $21.8 million in FY 2004
                     funds, TSA did not announce an application period or publish a FY 2004
                     application kit. In September 2004, a modification to the existing FY 2003
                     cooperative agreement awarded ATA the FY 2004 funds and extended the
                     project period through March 2006. With this modification, ATA received
                     more than $41 million under the FY 2003 and FY 2004 program awards. An
                     additional, no-cost modification in November 2004 expanded the agreement’s
                     scope of work to include mobilization planning, exercises, and other tasks.

                     The FY 2004 program year was transitional for the trucking industry security
                     grants. In May 2004, DHS divided program management responsibilities for
                     Highway Watch® between TSA and SLGCP. SLGCP and TSA drafted a
                     memorandum of agreement defining responsibilities and cooperation
                     processes for the program years underway, but SLGCP officials told us it was
                     not signed. The memorandum of agreement established that TSA would
    Administration of the Federal Trucking Industry Security Grant Program for FY 2004 and FY 2005

                                                Page 4
                          award, administer, and close out all grants made from FY 2004 and prior year
                          appropriations. SLGCP would coordinate and prepare the FY 2004
                          procurement request and manage future years, including overseeing ATA’s
                          completion of program priorities. For future years, TSA would continue to
                          provide transportation subject matter expertise and approve and distribute
                          funds.

                          Although SLGCP did not solicit applications for the FY 2004 program funds,
                          ATA submitted two proposals to initiate significant changes in the existing
                          cooperative agreement. SLGCP incorporated these proposals in the program
                          documentation as “revised applications” from ATA. One proposal was
                          incorporated as the September 2004 modification that awarded ATA the
                          FY 2004 funds and extended the project period through March 2006. ATA
                          submitted a second proposal two months after this major modification. At no
                          additional cost, ATA proposed to add tasks not originally included in the
                          FY 2003 cooperative agreement. These tasks included Spanish language
                          training and a statement of work for Mississippi State University Emergency
                          Planning and Education Center (MSU EPEC) to conduct several tasks:

                              • 	 Mobilization planning;

                              • 	 Exercises;

                              • 	 Emergency preparedness education and training incorporating the
                                  National Infrastructure Protection Plan and the National Response
                                  Plan; and

                              • 	 Technology research, development, demonstration, and application.

                          The SLGCP program manager initially determined that the MSU EPEC tasks
                          were outside of the scope of the cooperative agreement and incompletely
                          defined. Specifically, descriptions of the tasks did not identify the needs or
                          security benefits, or explain how the tasks would achieve the intended results.
                          Also, project milestones, deliverables, and due dates were not identified.
                          ATA countered that developing preparedness and response strategies, plus
                          providing access to educational and training programs that promote security
                          risk management, were part of their long-term plan, the American trucking
                          industry’s May 2002 “Anti-Terrorism Action Plan.” Furthermore, the Senate
                          directed that a portion of the Highway Watch® funds be made available for
                          emergency planning and exercises.4 SLGCP staff resolved their concerns
                          internally and subsequently modified the cooperative agreement to include the
                          items ATA proposed, with additional oversight requirements.


4
    S. Rep. No. 108-280, at 56 (2004).
         Administration of the Federal Trucking Industry Security Grant Program for FY 2004 and FY 2005


                                                     Page 5

                 The majority of monitoring requirements for the FY 2004 program year were
                 set by the cooperative agreement for FY 2003. The FY 2003 cooperative
                 agreement required ATA to submit the following reports to the TSA program
                 manager to aid in monitoring progress:

                     • 	 Quarterly technical progress reports, to be submitted to the TSA
                         program manager within 30 days after the end of each three-month
                         period;

                     • 	 The SF-269A Financial Status Report, to be submitted quarterly to the
                         TSA program manager and contracting officer within 15 days after
                         each quarter and within 120 days after the end of the project period;

                     • 	 Audits and accompanying forms, to be submitted to the TSA
                         contracting officer and Federal Audit Clearinghouse in accordance
                         with the requirements and timelines set in Office of Management and
                         Budget (OMB) Circular A-133, Audits of States, Local Governments,
                         and Non-Profit Organizations; and

                     • 	 A Final Technical Completion Report, to be submitted to the TSA
                         program manager and contracting officer within 90 days after the end
                         of the project period.

                 Also, the agreement required ATA to report quarterly to TSA on its activities
                 for training and recruitment, coordination and relationship-building, the
                 Highway Watch® Call Center, and the Highway ISAC. The agreement also
                 required ATA to receive assistance and approval from the TSA program
                 manager for recruitment initiatives, and approval before publication for
                 training and promotional materials. Finally, ATA was required to submit
                 publications and articles to the TSA program manager upon publication.

                 In addition to these requirements, the TSA program manager was required to
                 provide guidance and support to increase the effectiveness and efficiency of
                 Highway Watch® and to integrate it with broader governmental objectives.
                 TSA had the option of establishing an advisory or steering committee to
                 provide additional guidance to Highway Watch®. TSA planned to procure
                 the services of a third party to perform an independent program evaluation of
                 the Highway Watch® program. TSA set aside $300,000 for that procurement.

                 No additional monitoring requirements were added in the documents related
                 to the September 2004 modification, which extended the requirements of the
                 FY 2003 cooperative agreement. Documents related to the November 2004
                 modification added reporting requirements and milestones for the Spanish
                 language training development and Mississippi State University tasks. Those
                 documents also increased ATA’s frequency of technical progress reporting to
Administration of the Federal Trucking Industry Security Grant Program for FY 2004 and FY 2005

                                            Page 6
                 monthly. Once ATA met the goal of training 300,000 highway professionals,
                 reporting would return to quarterly intervals.

                 As required for the duration of the FY 2004 program’s performance period,
                 ATA submitted monthly technical progress reports to SLGCP, as well as
                 recruiting training, and promotional materials, and other publications.
                 According to SLGCP staff, ATA was in daily contact with them. When the
                 cooperative agreement was modified to add the Spanish language training
                 development and Mississippi State University tasks, the reports submitted by
                 ATA included information about the progress of each of these items. ATA
                 did not meet the target of training 300,000 highway professionals until
                 June 2006, so monthly reports continued for all but the last quarter of the
                 entire FY 2004 program performance period.

                 ATA, the MSU EPEC, and SLGCP created three working groups to enhance
                 communication across government and industry and to provide advice to
                 ensure MSU EPEC’s work supported the Highway Watch® mission. As of
                 the end of 2005, MSU EPEC, ATA, and DHS officials said the working
                 groups had few meetings and provided little direction.

                 SLGCP decided to postpone the independent program evaluation until
                 Highway Watch® was a more vigorous program. In March 2005, SLGCP
                 drafted a plan in which it would use its own staff to perform the evaluation,
                 rather than a third party as planned by TSA. This evaluation has not yet been
                 performed, and $300,000 remains set aside for the work.

                 ATA did not begin to expend the FY 2004 program funds until
                 November 2005. Under an additional modification to the cooperative
                 agreement, dated March 2006, SLGCP extended the performance period
                 through December 2006. ATA exhausted the FY 2004 funds in
                 September 2006. To monitor ATA’s work, the SLGCP program manager
                 reviewed ATA’s Highway Watch® invoices before forwarding them to TSA
                 for reimbursement. The SLGCP program manager also received the required
                 quarterly financial status reports from ATA. ATA conducted their A-133
                 audits annually and submitted the forms documenting their completion. In
                 addition, ATA submitted their final SF-269A Financial Status Report after the
                 project period ended.

                 ATA submitted its final technical completion report in March 2007. There
                 has been no closeout for the FY 2004 program funds. The cause of the delay
                 is ATA’s open request to TSA to increase retroactively the indirect cost rates
                 that are permitted under the cooperative agreement. ATA officials said their
                 actual rates for indirect general and administrative costs were significantly
                 more than the approved, provisional billing rates provided. The provisional
                 rates were based on an algorithm used by ATA for other federal contracts and
Administration of the Federal Trucking Industry Security Grant Program for FY 2004 and FY 2005

                                            Page 7
                 were billed as a percentage of direct costs. ATA explained it incurred
                 unexpected costs during Highway Watch® due to implementing federal cost
                 accounting principles. ATA added that less-than-anticipated direct costs to
                 run Highway Watch® prevented the provisional rate from yielding sufficient
                 funds to cover ATA’s indirect expenses. More than $3.5 million of ATA’s
                 claimed $8 million in program administration costs for the FY 2004 program
                 funds is the difference between the provisional and actual indirect costs. ATA
                 first made the request for retroactive rate adjustment in October 2005, and it
                 remains open. To respond to the request, TSA plans to have an audit
                 conducted, but work has not begun.

 Procedures for the FY 2005 Trucking Industry Security Grant
                 At $5 million, the FY 2005 DHS Appropriations Act (Public Law 108-334)
                 provided significantly less funding than the FY 2004 act. Eligibility for
                 funding was limited to ATA to support and expand the existing
                 Highway Watch® program. SLGCP managed the announcement, application,
                 receipt, review, award, and monitoring procedures for the FY 2005 trucking
                 industry security grant program. Closeout has not yet occurred for the
                 program year because a special condition restricted ATA’s full use of the
                 funding until July 2007 and closure paperwork is still in process.

                 The grant announcement (DHS-GRANTS-042705-001) appeared on
                 Grants.gov on April 27, 2005, with an application due date of May 25, 2005.
                 In the FY 2005 application kit, SLGCP rephrased the four program priorities
                 as follows:

                     •   Participant identification and recruitment;

                     •   Training;

                     •   Communications; and

                     •   Information analysis and distribution.

                  For each of the four project priorities, SLGCP required ATA to submit a
                  separate project narrative and a separate budget worksheet and budget
                  narrative. SLGCP also required ATA to provide detailed information on
                  management capabilities, challenges, impediments, and proposed solutions
                  for completing the project. Furthermore, SLGCP required ATA to describe
                  its major initiatives, including a chart showing milestones and target dates for
                  project completion. SLGCP used its internet-based Grants Management
                  System to receive ATA’s complete application for the FY 2005 funding.


Administration of the Federal Trucking Industry Security Grant Program for FY 2004 and FY 2005

                                            Page 8
                 In collaboration with TSA subject matter experts, SLGCP reviewed ATA’s
                 application for the FY 2005 program funds. SLGCP also solicited comments
                 from DOT’s Federal Motor Carrier Safety Administration. During the review
                 process, no substantial issues or concerns arose to require changes to ATA’s
                 application. As part of its standard procedures, SLGCP attached a special
                 condition to ATA’s FY 2005 funding. At the time of the award, ATA was not
                 allowed to obligate, expend, or draw down any grant funds until SLGCP
                 received clearance from a third-party review of ATA’s application budget.
                 When that occurred, SLGCP planned to issue a Grant Adjustment Notice
                 removing the special condition. In May 2006, the special condition was
                 revised to allow ATA to draw down all but $893,448. After ATA submitted a
                 federally approved indirect cost rate agreement, the condition was fully
                 removed in July 2007.

                 The notification that SLGCP approved ATA’s application, with the special
                 condition, occurred in September 2005. The FY 2005 cooperative agreement
                 required ATA to submit the following reports to the SLGCP to aid in
                 monitoring progress:

                     • 	 Quarterly financial status reports, within 45 days of the end of each
                         calendar quarter and within 90 days after the end of the grant period;

                     • 	 Categorical Assistance Progress Reports, twice yearly for the life of
                         the award; and

                     • 	 Audits and accompanying forms, to be submitted in accordance with
                         the requirements and timelines set in OMB Circular A-133.

                 ATA began expending the FY 2005 funds in September 2006 and exhausted
                 the majority of the funds in December 2006. During that period, ATA
                 provided all required reports and A-133 audits to FEMA’s Capabilities
                 Division, where the SLGCP staff are now located. Because the special
                 condition prevented full use of the funds until July 2007, ATA had not
                 completed and submitted the two final reports on use of FY 2005 funds when
                 our fieldwork concluded in September 2007. The 90-day window for ATA’s
                 final reporting was still open. Now that ATA exhausted the FY 2005 funds,
                 FEMA’s Capabilities Division staff plans to initiate closeout of those funds.
                 To do so, they will request ATA to provide a final financial status report and a
                 final Categorical Assistance Progress Report that details all Highway Watch®
                 accomplishments related to the FY 2005 funds. That step will permit
                 FEMA’s Capabilities Division to close out the FY 2005 trucking industry
                 security grant.




Administration of the Federal Trucking Industry Security Grant Program for FY 2004 and FY 2005

                                            Page 9
 Grant Funding for FY 2004 and FY 2005
                 ATA received $26.6 million under the FY 2004 and FY 2005 trucking
                 industry security grants. DHS retained $366,060 for program administration.
                 Because ATA continued to expend funds from the FY 2003 grant until
                 November 2005, the grant funds for FY 2004 and FY 2005 were expended in
                 FY 2006 and FY 2007. ATA spent the FY 2004 funds between
                 November 2005 and September 2006 and the FY 2005 funds between
                 September and December 2006. The following table categorizes these funds
                 by activity:

                 Table 1: ATA Expenditure of FY 2004 and FY 2005 program funds

                                                      FY 2004 funds            FY 2005 funds
                      Funded Activity                  work performed          work performed
                                                      11/18/05 – 9/13/06      9/14/06 – 12/28/06

                  Infrastructure Protection                    $3,091,458              $1,214,056
                  Training                                     $6,828,570              $1,977,997
                  Equipment                                       $94,454                 $31,524
                  Educational Materials                        $1,897,066                      $0
                  Program Administration                       $7,960,968              $1,370,476
                  Marketing                                    $1,933,017                $234,334
                  TOTALS                                      $21,805,533              $4,828,387
                 Source: ATA.

                 Of the $21.8 million in FY 2004 grant funds that ATA expended, nearly
                 $8 million paid for ten months of program administration costs: indirect
                 general and administrative costs, plus salaries for employees whose primary
                 responsibility was program administration. The $8 million also included more
                 than $1 million for software development and database management for an
                 online training module. The $6.8 million that ATA spent on training activities
                 paid for Highway Watch® training staff and for training-related support from
                 state trucking associations and Total Security Services International, Inc., the
                 curriculum developer. Printing and reproduction of the Highway Watch®
                 training materials cost $1.9 million. The $3.1 million in infrastructure
                 protection funds paid for the Highway Watch® Call Center; support for the
                 Highway ISAC, which included salaries for intelligence analysts; and
                 emergency planning and exercises, including Mississippi State University’s
                 exercise support.

                 For the subsequent three and a half months, the FY 2005 grant continued
                 funding for program salaries and general and administrative costs; training
                 staff and support; and the Highway Watch® Call Center and Highway ISAC.
                 Software development and database management consumed approximately 64
Administration of the Federal Trucking Industry Security Grant Program for FY 2004 and FY 2005


                                           Page 10

                 percent of program administration costs, or $901,000 of $1.4 million. In
                 FY 2005, ATA did not need to print or reproduce any additional training
                 materials; therefore, ATA did not spend any funds on the educational
                 materials activity.




Administration of the Federal Trucking Industry Security Grant Program for FY 2004 and FY 2005


                                           Page 11

Appendix A
Purpose, Scope, and Methodology



                          As required by the Implementing Recommendations of the 9/11 Commission
                          Act of 2007,5 we initiated a two-part review of the federal trucking industry
                          security grant program. The purpose of this first part was to:

                              • 	 Describe the announcement, application, receipt, review, award,
                                  monitoring, and closeout processes for trucking security grants; and

                              • 	 Summarize expenditures related to the FY 2004 and FY 2005 

                                  programs. 


                          We reviewed DHS administration of the trucking industry security grant
                          program from FY 2003 to FY 2005. This review included how the
                          Highway Watch® cooperative agreements were developed, including the
                          original agreement between TSA and ATA, modifications, all financial
                          adjustments, and the contractual relationship between ATA and MSU EPEC.
                          Because the financial reports associated with the FY 2004 and FY 2005
                          cooperative agreements did not track expenditures according to the categories
                          listed in Public Law 110-53 § 1542 (2), we obtained data from ATA officials
                          to apply the categories to ATA’s expenditures. Although we reviewed costs
                          claimed, we did not conduct a financial audit of those costs. Accordingly, we
                          do not express an opinion on the funds ATA claimed in status reports
                          submitted to TSA or SLGCP.

                          We conducted our initial fieldwork between August 2005 and April 2006,
                          with additional fieldwork in September 2007. Our review was conducted
                          under the authority of the Inspector General Act of 1978, as amended, and
                          according to the Quality Standards for Inspections issued by the President’s
                          Council on Integrity and Efficiency.




5
    Pub. L. 110-53 § 1542.
         Administration of the Federal Trucking Industry Security Grant Program for FY 2004 and FY 2005


                                                    Page 12

Appendix B
Management’s Comments to the Draft Report



                      We provided TSA and FEMA with a draft of this report for review and
                      comment. TSA provided technical comments on the report, which we
                      reviewed and incorporated as appropriate. FEMA had no comment on the
                      draft report.




     Administration of the Federal Trucking Industry Security Grant Program for FY 2004 and FY 2005

                                                Page 13
Appendix C 

Funding Profile for Highway Watch® 




     Date of                                                                           Period of     Award
                        Award Vehicle                Legislative Authority
     Award                                                                           Performance     Amount
    9/30/2000   DOT Cooperative Agreement       Conference Report6                  9/30/2000 to      $275,000
                (DFTH61-00-X-00112)                                                 9/30/2001
    10/4/2001   Amendment to DOT                                                    9/30/2000 to    No additional
                Cooperative Agreement (to                                           9/30/2002      funds awarded
                extend period of performance)
     9/5/2002   Amendment to DOT                Conference Report7                  9/30/2000 to        $500,000
                Cooperative Agreement (to                                           12/31/2003
                extend period of performance
                and increase funding)
     8/1/2003   TSA Grant Award (DTSA20­        FY 2003 Consolidated                8/4/2003 to          $99,917
                03-G-01924)                     Appropriations Resolution (Public   10/15/2003
                                                Law 108-7)
    3/15/2004   TSA FY 2003 Cooperative         FY 2003 Emergency Wartime           3/15/2004 to     $19,300,000
                Agreement (HSTS04-04-H­         Supplemental Appropriations Act     3/15/2005
                STR001)                         (Public Law 108-11)
    9/10/2004   Modification to TSA FY 2003     FY 2004 DHS Appropriations Act      3/15/2004 to     $21,780,000
                Cooperative Agreement (to       (Public Law 108-90)                 3/15/2006
                extend period of performance
                and increase funding)
    11/5/2004   Modification to TSA FY 2003     Senate Report8                      3/15/2004 to    No additional
                Cooperative Agreement (to add                                       3/15/2006      funds awarded
                Spanish language training and
                MSU EPEC statements of work)
     3/3/2006   Modification to TSA FY 2003                                         3/15/2004 to    No additional
                Cooperative Agreement (to                                           12/31/2006     funds awarded
                extend period of performance)
    9/30/2005   SLGCP FY 2005 Cooperative       FY 2005 DHS Appropriations Act      8/1/2005 to       $4,828,569
                Agreement (2005-GB-T5-K001)     (Public Law 108-334)                1/31/2008
    9/30/2006   G&T FY 2006 Cooperative         FY 2006 DHS Appropriations Act      10/1/2006 to      $4,801,500
                Agreement (2006-HW-T6­          (Public Law 109-90)                 3/31/2009
                K001)
        TBD     G&T FY 2007 Cooperative         FY 2007 DHS Appropriations Act      1/1/2007 to      $11,640,000
                Agreement (pending)             (Public Law 109-295)                12/31/2009
    TOTAL                                                                                            $63,224,986




6
  H.R. Rep. No. 106-355 (1999) (Conf. Rep.).
7
  H.R. Rep. No. 107-308 (2001) (Conf. Rep.).
8
  S. Rep. No. 108-280 (2004).
       Administration of the Federal Trucking Industry Security Grant Program for FY 2004 and FY 2005

                                                      Page 14
Appendix D
Timeline of Grant Application and Awards


Timeline of Grant Application and Awards (sorted by program year)
 ID   Task Name                                                   2003                         2004                             2005                               2006                             2007                              2008
                                                           Qtr 4 Qtr 1 Qtr 2 Qtr 3 Qtr 4 Qtr 1        Qtr 2     Qtr 3   Qtr 4   Qtr 1    Qtr 2   Qtr 3     Qtr 4   Qtr 1   Qtr 2    Qtr 3   Qtr 4   Qtr 1   Qtr 2   Qtr 3     Qtr 4   Qtr 1   Qtr 2
 1    FY 2003 Emergency Wartime Supplemental (PL 108-11)        PL 108-11 Funds FY 2003 Program
                                                                     4/16/2003
 2    FY 2003 Cooperative Agreement (HSTS04-04-H-STR001)                                      FY 2003 Award Amount
                                                                                              3/15/2004     $19,300,000
 3    ATA expends FY 2003 funds                                                                               ATA's Expenditures of FY 2003 Program Funds
                                                                                               3/15/2004                                                               11/18/2005
 4

 5    FY 2004 DHS Appropriations Act (PL 108-90)                            PL 108-90 Funds FY 2004 Program
                                                                                 10/1/2003
 6    Modification #2 to FY 2003 Cooperative Agreement                                                                          FY 2004 Award Amount
                                                                                                                                3/15/2005     $21,780,000
 7    ATA expends FY 2004 funds                                                                                                                          ATA's Expenditures of FY 2004 Program Funds
                                                                                                                                                         11/18/2005                           9/13/2006
 8

 9    FY 2005 DHS Appropriations Act (PL 108-334)                                                          PL 108-334 Funds FY 2005 Program
                                                                                                               10/18/2004
 10   FY 2005 Cooperative Agreement opportunity posted                                                                             FY 2005 Announcement
      (DHS-GRANTS-042705-001)                                                                                                      4/27/2005
 11   FY 2005 Cooperative Agreement applications due                                                                                    FY2005 Application Due
      (DHS-GRANTS-042705-001)                                                                                                           5/25/2005
 12   FY 2005 Cooperative Agreement (2005-GB-T5-K001)                                                                                        FY 2005 Award Amount
                                                                                                                                              8/4/2005     $4,828,569
 13   ATA expends FY 2005 funds                                                                                                                                            ATA's Expenditures of FY 2005 Program Funds
                                                                                                                                                                                   9/14/2006             12/27/2006
 14

 15   FY 2006 DHS Appropriations Act (PL 109-90)                                                                                              PL 109-90 Funds FY 2006 Program
                                                                                                                                                  10/18/2005
 16   FY 2006 Cooperative Agreement opportunity posted                                                                                                                       FY 2006 Announcement
      (DHS-06-OGT-059-1376)                                                                                                                                                   7/6/2006
 17   FY 2006 Cooperative Agreement applications due                                                                                                                           FY2006 Application Due
      (DHS-06-OGT-059-1376)                                                                                                                                                     8/4/2006
 18   FY 2006 Cooperative Agreement (2006-HW-T6-K001)                                                                                                                                FY 2006 Award Amount
                                                                                                                                                                                     10/1/2006     $4,801,500
 19   ATA expends FY 2006 funds                                                                                                                                                        ATA's Expenditures of FY 2006 Program Funds
                                                                                                                                                                                            12/29/2006                 6/1/2007
 20

 21   FY 2007 DHS Appropriations Act (PL 109-295)                                                                                                                             PL 109-295 Funds FY 2007 Program
                                                                                                                                                                                    10/4/2006
 22   FY 2007 Cooperative Agreement opportunity posted                                                                                                                                        FY 2007 Announcement
      (DHS-07-OGT-059-1552)                                                                                                                                                                   1/11/2007
 23   FY 2007 Cooperative Agreement applications due                                                                                                                                                FY 2007 Application Due
      (DHS-07-OGT-059-1552)                                                                                                                                                                          3/6/2007
 24   FY 2007 Cooperative Agreement                                                                                                                                                          FY 2007 Award Amount
                                                                                                                                                                                              1/2/2007     $11,640,000




                                        Administration of the Federal Trucking Industry Security Grant Program for FY 2004 and FY 2005


                                                                                                      Page 15

Appendix D
Timeline of Grant Application and Awards


Timeline of Grant Application and Awards (sorted chronologically)
 ID   Task Name                                                   2003                      2004                            2005                              2006                            2007                            2008
                                                            Qtr 4 Qtr 1 Qtr 2 Qtr 3 Qtr 4 Qtr 1    Qtr 2    Qtr 3   Qtr 4   Qtr 1    Qtr 2   Qtr 3    Qtr 4   Qtr 1   Qtr 2   Qtr 3   Qtr 4   Qtr 1   Qtr 2   Qtr 3   Qtr 4   Qtr 1   Qtr 2
 1    FY 2003 Emergency Wartime Supplemental (PL 108-11)        PL 108-11 Funds FY 2003 Program
                                                                     4/16/2003
 4

 5    FY 2004 DHS Appropriations Act (PL 108-90)                           PL 108-90 Funds FY 2004 Program
                                                                                10/1/2003
 2    FY 2003 Cooperative Agreement (HST S04-04-H-STR001)                                  FY 2003 Aw ard Amount
                                                                                           3/15/2004    $19,300,000
 3    AT A expends FY 2003 funds                                                                           ATA's Expenditures of FY 2003 Program Funds
                                                                                            3/15/2004                                                             11/18/2005
 8

 9    FY 2005 DHS Appropriations Act (PL 108-334)                                                       PL 108-334 Funds FY 2005 Program
                                                                                                            10/18/2004
 6    Modification #2 to FY 2003 Cooperative Agreement                                                                      FY 2004 Aw ard Amount
                                                                                                                            3/15/2005    $21,780,000
 10   FY 2005 Cooperative Agreement opportunity posted                                                                         FY 2005 Announcement
      (DHS-GRANTS-042705-001)                                                                                                  4/27/2005
 11   FY 2005 Cooperative Agreement applications due                                                                                FY2005 Application Due
      (DHS-GRANTS-042705-001)                                                                                                       5/25/2005
 12   FY 2005 Cooperative Agreement (2005-GB-T 5-K001)                                                                                   FY 2005 Aw ard Amount
                                                                                                                                          8/4/2005    $4,828,569
 14

 15   FY 2006 DHS Appropriations Act (PL 109-90)                                                                                         PL 109-90 Funds FY 2006 Program
                                                                                                                                             10/18/2005
 7    AT A expends FY 2004 funds                                                                                                                     ATA's Expenditures of FY 2004 Program Funds
                                                                                                                                                     11/18/2005                        9/13/2006
 16   FY 2006 Cooperative Agreement opportunity posted                                                                                                                 FY 2006 Announcement
      (DHS-06-OGT -059-1376)                                                                                                                                            7/6/2006
 17   FY 2006 Cooperative Agreement applications due                                                                                                                     FY2006 Application Due
      (DHS-06-OGT -059-1376)                                                                                                                                              8/4/2006
 13   AT A expends FY 2005 funds                                                                                                                                      ATA's Expenditures of FY 2005 Program Funds
                                                                                                                                                                              9/14/2006          12/27/2006
 18   FY 2006 Cooperative Agreement (2006-HW-T6-K001)                                                                                                                          FY 2006 Aw ard Amount
                                                                                                                                                                               10/1/2006    $4,801,500
 20

 21   FY 2007 DHS Appropriations Act (PL 109-295)                                                                                                                       PL 109-295 Funds FY 2007 Program
                                                                                                                                                                             10/4/2006
 19   AT A expends FY 2006 funds                                                                                                                                                ATA's Expenditures of FY 2006 Program Funds
                                                                                                                                                                                     12/29/2006              6/1/2007
 24   FY 2007 Cooperative Agreement                                                                                                                                                    FY 2007 Aw ard Amount
                                                                                                                                                                                        1/2/2007    $11,640,000
 22   FY 2007 Cooperative Agreement opportunity posted                                                                                                                                 FY 2007 Announcement
      (DHS-07-OGT -059-1552)                                                                                                                                                           1/11/2007
 23   FY 2007 Cooperative Agreement applications due                                                                                                                                          FY 2007 Application Due
      (DHS-07-OGT -059-1552)                                                                                                                                                                   3/6/2007




                                    Administration of the Federal Trucking Industry Security Grant Program for FY 2004 and FY 2005


                                                                                                   Page 16

Appendix E
Major Contributors to this Report



                      Kirsten Murray, Inspector
                      Melissa Keaster, Inspector
                      Wynne Kelch, Inspector




     Administration of the Federal Trucking Industry Security Grant Program for FY 2004 and FY 2005


                                                Page 17

Appendix F
Report Distribution



                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Policy
                      Assistant Secretary for Public Affairs
                      Assistant Secretary for Legislative Affairs
                      Assistant Secretary for the Office of Grants and Training
                      Assistant Secretary for Transportation Security Administration
                      Assistant Administrator for Acquisition, TSA
                      Division Director, Capabilities Division, FEMA
                      Audit Liaison, TSA
                      Audit Liaison, FEMA

                      Office of Management and Budget
                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress
                      Congressional Oversight and Appropriations Committees, as appropriate




     Administration of the Federal Trucking Industry Security Grant Program for FY 2004 and FY 2005

                                                Page 18
Appendix F
Report Distribution




 Additional Information and Copies
 To obtain additional copies of this report, call the Office of Inspector General (OIG) at
 (202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web site at
 www.dhs.gov/oig.


 OIG Hotline
 To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
 or noncriminal misconduct relative to department programs or operations:

     •    Call our Hotline at 1-800-323-8603;
     •    Fax the complaint directly to us at (202) 254-4292;
     •    Email us at DHSOIGHOTLINE@dhs.gov; or
     •	   Write to us at:
            DHS Office of Inspector General/MAIL STOP 2600, Attention:
            Office of Investigations - Hotline, 245 Murray Drive, SW, Building 410,
            Washington, DC 20528.

 The OIG seeks to protect the identity of each writer and caller.
